No. 21In The
SUPREME COURT of the UNITED STATES

Robert A. Heghmann,
Petitioner,

v.

Donald J. Trump and Wilbur Ross,
Respondents.

ON PETITION FOR A WRIT OF MANDAMUS TO THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

CERTIFICATE OF COMPLIANCE

Robert A. Heghmann
Pro Se
P.O. Box 6342
Virginia Beach, VA 23456
(603) 866 - 3089
Bob Heghmann@Reagan.com

The Petitioner certifies that the Petition for a Writ of Mandamus contains
1501 words which is well within the length permissible under Rule 33. Further,
while this Petition under Rule 20 would ordinarily be filed in Pamphlet form under
Rule 33, due to the current Covid-19 Pandemic this Court has suspended that Rule
and now permits filing in the 8
Petition.

x 11 inch format adopted by the Petitioner in this

